U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

August 30, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Gavin Wayne Wright v. United States, No. 21-5039
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 24, 2021.
The government’s response is now due, after one extension, on September 8, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including September 29, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

21-5039
WRIGHT, GAVIN WAYNE
USA

KARI S. SCHMIDT
CONLEE, SCHMIDT & EMERSON, LLP
200 W. DOUGLAS
STE. 300
WICHITA, KS 67202
316-264-3300
KARIS@FCSE.NET

